<html>
<title> - DEVELOPING FEDERAL EMPLOYEES AND SUPERVISORS: MENTORING, INTERNSHIPS, AND TRAINING IN THE FEDERAL GOVERNMENT</title>
<body><pre>[Senate Hearing 111-594]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-594

                    DEVELOPING FEDERAL EMPLOYEES AND
                  SUPERVISORS: MENTORING, INTERNSHIPS,
                 AND TRAINING IN THE FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2010

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs






                  U.S. GOVERNMENT PRINTING OFFICE
57-331 PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
ROLAND W. BURRIS, Illinois           LINDSEY GRAHAM, South Carolina
EDWARD E. KAUFMAN, Delaware

                     Lisa M. Powell, Staff Director
                       Bryan G. Polisuk, Counsel
             Jennifer A. Hemingway, Minority Staff Director
           Sean M. Stiff, Minority Professional Staff Member
                      Aaron H. Woolf, Chief Clerk















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                        Thursday, April 29, 2010

Nancy H. Kichak, Associate Director and Chief Human Capital 
  Officer, U.S. Office of Personnel Management...................     5
Marilee Fitzgerald, Director, Workforce Issues and International 
  Programs, U.S. Department of Defense...........................     6
Colleen M. Kelley, National President, National Treasury 
  Employees Union................................................    20
J. David Cox, Sr., National Secretary-Treasurer, American 
  Federation of Government Employees, AFL-CIO (AFGE).............    22
John Palguta, Vice President for Policy, Partnership for Public 
  Service........................................................    23
Laura K. Mattimore, Ph.D., Director of Leadership Development, 
  Procter & Gamble...............................................    25

                     Alphabetical List of Witnesses

Cox, J. David, Sr.:
    Testimony....................................................    22
    Prepared statement...........................................    62
Fitzgerald, Marilee:
    Testimony....................................................     6
    Prepared statement...........................................    43
Kelley, Colleen M.:
    Testimony....................................................    20
    Prepared statement...........................................    55
Kichak, Nancy H.:
    Testimony....................................................     5
    Prepared statement...........................................    39
Mattimore, Laura K., Ph.D.:
    Testimony....................................................    25
    Prepared statement...........................................    79
Palguta, John:
    Testimony....................................................    23
    Prepared statement...........................................    71

                                APPENDIX

Background.......................................................    88
``Results of Hotline Complaint Review of EPA Region 9 Hiring 
  under the Federal Career Intern Program,'' Hotline Report No. 
  10-P-0112, April 26, 2010, Office of Inspector General, U.S. 
  Environmental Protection Agency, submitted by Ms. Kelley.......    93
``Developing Federal Employees and Supervisors: Mentoring, 
  Internships, and Training in the Federal Government,'' prepared 
  statement submitted for the Record by The Federal Managers 
  Association....................................................   115
Responses to questions submitted for the Record:
    Ms. Kichak...................................................   124
    Ms. Kelley...................................................   125
    Mr. Cox......................................................   127
    Mr. Palguta..................................................   129

 
                      DEVELOPING FEDERAL EMPLOYEES
                      AND SUPERVISORS: MENTORING,
                      INTERNSHIPS, AND TRAINING IN
                         THE FEDERAL GOVERNMENT

                              ----------                              


                        THURSDAY, APRIL 29, 2010

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Really great to see all of you here today. 
This hearing will come to order. Good afternoon, and welcome to 
our distinguished panelists and our guests. I would like to 
thank you all for joining us here today for this hearing on 
employee and supervisor development in the Federal workforce.
    Today the Federal Government confronts some of the most 
serious challenges in our Nation's history. Each day 
approximately two million civil servants sacrifice to protect 
our country from attack, serve our Nation's veterans, provide 
for the needy, and otherwise improve the lives of Americans. 
For too long, however, we have failed to provide Federal 
employees with the tools they need to be successful.
    Agencies often cut employee training and development 
programs to stretch limited funding. Federal employees are left 
to execute their missions without the resources and support 
they need. As a former teacher, I understand that individuals 
need guidance and nurturing to excel. In order to provide 
efficient and effective government programs that taxpayers 
should expect, we must invest in Federal employee training and 
development programs.
    By 2014, the Office of Personnel Management (OPM) estimates 
that nearly 500,000 Federal employees, including a large number 
of supervisors, will retire. The Department of Defense (DOD), 
our largest Federal agency, is projected to lose approximately 
20 percent of its workforce to retirement by 2012.
    These impending retirements make training and developing 
Federal employees even more urgent. Federal agencies must take 
steps now to ensure that a new generation of employees is ready 
to lead when this retirement wave hits. My Federal Supervisor 
Training Act addresses this need.
    Often new supervisors have no prior management experience 
and receive little training on how to be a good manager. My 
bill would require each Federal agency to provide mandatory 
training to new supervisors and retraining every 3 years. The 
bill would require training on topics including setting 
employee performance goals, mentoring and motivating employees, 
fostering a fair and respectful work environment, addressing 
poor performance, employee whistleblower, non-discrimination, 
and other rights and protections, and other important topics.
    Supervisory training promotes better manager/employer/
employee relationships, improves communication, reduces 
conflict and otherwise helps supervisors do their jobs better. 
And better supervisor performance leads to a more effective 
government. Good supervisors motivate and empower their 
employees, which improves agency productivity and saves 
taxpayers money.
    Because of the many benefits of supervisor training, my 
bill is broadly supported by both labor and management groups. 
I was pleased that the National Defense Authorization Act 
(NDAA) for Fiscal Year 2010 contained nearly identical 
requirements for DOD employees. Additionally, OPM issued 
regulations last year to require more effective Federal 
supervisor training and I look forward to hearing from our 
witnesses on the progress being made in this area.
    While these are positive developments, I believe 
legislation is needed to ensure that all supervisors receive 
the training and resources they need to perform well. 
Internship and apprenticeship programs can be a good avenue for 
focused training and development of new employees.
    I am particularly proud of the Pearl Harbor Naval Ship 
Yard's apprentice program, which annually attracts about 5,000 
applicants for 125 to 150 apprenticeships. Apprentices learn a 
trade and earn an associate's degree from the Honolulu 
Community College through this 4-year paid work study program.
    While I am a long-time supporter of valid internship 
programs, I am concerned about the increased use of the Federal 
Career Internship Program (FCIP) as a hiring authority. More 
than half of the employees at grades 5, 7 and 9 of the General 
Schedule (GS), or more than 22,000 employees per year, are now 
hired through this program. Many of these employees receive 
little of the focused training and development that is required 
under the Executive Order establishing the program.
    Labeling a hiring authority used for a wide range of 
positions as an internship program may weaken agencies' 
commitment to investing in real internships for focused 
employee development. Moreover, many have complained that 
agencies do not always honor veterans preference and other 
competitive service requirements when hiring through this 
program. As the chairman of the Veterans Affairs Committee and 
an ardent proponent of the merit system, the broad use of this 
program is very concerning to me.
    I look forward to hearing from our witnesses on these very 
important issues. With that, I would like to ask Senator 
Voinovich for any opening remarks he may have. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. As Senator 
Akaka knows, we have been long advocates of robust and focused 
training programs for supervisors and employees. This interest 
of mine stretches back more than three decades to my first 
months as mayor of the City of Cleveland.
    At that time, the Cleveland Police Department employed a 
written exam to select officers for promotion to the 
supervisory ranks. However, the test measured a candidate's 
knowledge of departmental procedures while ignoring any 
assessment of skill sets important for successfully managing 
employees. My Administration worked to establish a more valid 
selection process tied to the desired outcome, namely, to 
identify and promote officers with strong interpersonal and 
leadership qualities.
    Unfortunately, we see similar patterns in our Federal 
workforce. As agency missions become more complex, the ranks of 
the Federal workforce are increasingly filled by subject matter 
experts. Agencies often unnecessarily limit their focus when 
selecting future agency leaders.
    I know it just drove the police department crazy, Senator 
Akaka, because I appointed a captain to be the new chief of 
police. They just could not believe that, but he was a really 
good manager. So I think so often we forget about how important 
these management skills are.
    Federal employees often advance to the supervisory ranks 
because they are experts in cyber security or they are fluent 
in Arabic, not because they can effectively communicate 
performance goals to their employees or have outstanding 
mentoring skills. Preparing Federal agencies for future 
management challenges will require a shift in how agencies 
identify and train Federal managers and today we are going to 
hear from two important Federal agencies on efforts to do just 
that.
    Today's discussion will include other important components 
in developing Federal workers, including student internship and 
mentoring programs. The Subcommittee is also fortunate to be 
joined by a representative from Procter & Gamble, a recognized 
leader in developing future private-sector managers.
    But I would like to share some thoughts on a topic that I 
expect will draw much attention during the second panel, and 
that is the Federal Career Intern Program (FCIP). Today we will 
hear that the FCIP is either a well-designed legitimate hiring 
authority or a tool used by Federal agencies to frustrate the 
application of veterans' preference or discriminate against 
certain categories of applicants.
    I would argue, however, that we in Congress cannot yet 
determine which characterization of the FCIP is proper. When it 
established the FCIP as a permanent hiring authority in 
September 2005, OPM granted agencies much flexibility in 
tailoring the selection, training, and conversion components of 
the program to their own specific needs.
    Moreover, reporting requirements for agency use of the FCIP 
are limited at best and few Congressional hearings have touched 
on this subject since the authority was put in place. Finally, 
the last comprehensive examination of FCIP was included in a 
report issued by the Merit Systems Protection Board (MSPB) in 
September 2005, the same month OPM's rule went into effect, and 
much activity has happened since that time.
    In the absence of detailed information about how agencies 
employ the FCIP, we are left with anecdotal incidences of 
potential agency abuse of this tool. While such potential 
abuses are important, and if true need addressing, we cannot 
establish policy informed solely by such anecdotes. I would 
further argue that the increased use of FCIP does not 
necessarily mean this authority is being abused.
    For example, when one looks at a large group of Federal 
employees assembled using the FCIP, we see some of the very 
outcomes that some people's claims are denied by its use. For 
example, the U.S. Customs and Border Protection (CBP) has used 
this tool to hire thousands of additional border patrol 
officers. Together, this collection of current and former 
career interns represents one of the most ethnically diverse 
components of the civilian Federal workforce and features one 
of the highest concentrations of veterans among civilian 
agencies.
    Getting a firmer grip on the use of FCIP will require close 
examination by Members of Congress and I am glad today's 
hearing will provide one forum for such an examination. 
However, I must emphatically reject the premise that Congress 
must first resolve potential problems with the FCIP before 
working to provide Federal agencies with increased 
flexibilities and talent pipelines for filling the mission-
critical positions of the future.
    I am confident that the Members of this Subcommittee and 
its staff can examine both issues at once. And I worry each day 
that passes with Congress and the broader stakeholder community 
deadlock on this issue brings us one day closer to the largest 
demographic shift the Federal workforce has ever faced, and 
Senator Akaka has made that point--500,000 people by 2012.
    We are losing valuable time in working to provide agencies 
with the human capital tools they need to get the job done. As 
I told OPM Director Berry recently, the recession presents a 
once-in-a-lifetime opportunity for the Federal Government to 
recruit and retain outstanding individuals. We are going to be 
able to even compete with Procter & Gamble for individuals who 
may not be able to find work in the private sector and whose 
talents will lead them back to higher paying jobs when the 
economy recovers.
    So what I am concerned about is that we have this great 
opportunity to find some wonderful people and get them involved 
in the Federal Government. Once they come onboard, many of 
them, I think, are going to learn the wonderful opportunity 
they have to make a difference in the lives of the people who 
live in America and we will keep them onboard. But we cannot 
miss this golden opportunity that exists for us today.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you. Thank you very much for your 
statement, Senator Voinovich. On our first panel, it is my 
pleasure to welcome Nancy Kichak, the Associate Director for 
the Human Resources Policy Division at the Office of Personnel 
Management (OPM), and Marilee Fitzgerald, the Director of 
Workforce Issues and International Programs at the Department 
of Defense (DOD).
    As you know, it is the custom of this Subcommittee to swear 
in the witnesses, so I ask you to stand and raise your right 
hands.
    Do you solemnly swear that the information you are about to 
give this Subcommittee and your testimony is the truth, the 
whole truth, nothing but the truth, so help you, God?
    Ms. Kichak. I do.
    Ms. Fitzgerald. I do.
    Chairman Akaka. Thank you. Let the record note that the 
witnesses answered in the affirmative.
    I want you both to know that although your remarks are 
limited to 5 minutes, your full statements will be included in 
the record. Ms. Kichak, will you please proceed with your 
statement?

 TESTIMONY OF NANCY H. KICHAK,\1\ ASSOCIATE DIRECTOR AND CHIEF 
   HUMAN CAPITAL OFFICER, U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Kichak. Chairman Akaka and Ranking Member Voinovich, 
thank you for inviting me to testify at this important hearing 
on mentoring and training for employees and supervisors in the 
Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kichak appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    It is not possible to overstate how important our Director, 
John Berry, believes training is in our effort to nurture a 
high quality, high performing workforce. We strongly believe 
providing managers and supervisors with the training they need 
is critical to their success, and consequently, the success of 
the Federal workforce.
    Mr. Chairman, we at OPM appreciate the efforts both you and 
Senator Voinovich have taken to move the government forward in 
its approach to supervisory training. Senator Voinovich led the 
effort to enact the Federal Workforce Flexibility Act of 2004, 
which requires agencies to establish a comprehensive management 
succession program that includes training to develop managers.
    OPM published final regulations last year requiring 
supervisory training within 1 year of a new supervisor's 
appointment and retraining at least once every 3 years on 
options and strategies to mentor employees, improve employees' 
performance and productivity, conduct performance appraisals, 
and identify and assist employees in addressing unacceptable 
performance. OPM is currently developing guidance to assist 
agencies in implementing this final regulation. Our plan is to 
include this guidance in a newly revised training policy 
handbook that we hope to finish later this year.
    Mr. Chairman, I know you have introduced the Federal 
Supervisory Training Act with the aim of enhancing Federal 
employee and manager performance and in turn agency 
performance. The bill includes requirements for new supervisors 
to receive interactive instructor-based training. In addition, 
agencies would be required to develop mentoring programs for 
new supervisors and evaluate the effectiveness of supervisory 
training programs.
    At the request of the Subcommittee staff, OPM recently 
conducted an informal inventory of agencies to determine what 
agencies are doing to meet the supervisory training 
requirements in our regulations and those that would be 
required under S. 674. Twenty-five agencies responded to the 
request. About half of the agencies we surveyed currently are 
meeting those requirements and a majority of the others are 
developing supervisory training programs to fully comply.
    Most agencies go beyond the requirements in the Federal 
Workforce Flexibility Act and offer new supervisors training in 
additional key areas such as recruiting and hiring, labor and 
employee relations, team building, strategic planning, and 
conflict management. Five agencies, including the Department of 
Defense, meet all of the additional training requirements 
presented in S. 674, and six more agencies meet the 
requirements in the bill, except for the requirement to 
establish mentoring programs for new supervisors.
    To assist agencies in the development of successful 
mentoring programs, OPM recently issued a publication on 
mentoring best practices and hosted a best practice and 
mentoring forum where five agencies discussed their mentoring 
programs with the Federal learning and development community. 
Mentoring is also an integral part of many developmental 
programs and plays a huge role in developing and retaining a 
diverse workforce.
    You also asked me to address our role in overseeing the 
Federal Career Intern Program. The program was established by 
Executive Order in 2000 to help agencies recruit individuals 
for careers in analyzing and implementing public programs 
during a time when the threat of the retirement wave was 
imminent. Agencies are required to develop 2-year formal 
training and job assignment programs for each career intern. 
Upon successful completion, agencies have the option of 
bringing in these interns into the permanent workforce.
    OPM oversees the program. Through our implementing 
regulations and other agency guidance, we directed agencies to 
develop merit-based procedures for recruiting and selecting 
interns in accordance with the government regulations governing 
employment in the accepted service. We will be reviewing the 
program and making recommendations for its future as part of 
the Administration's Federal hiring reform initiative.
    Thank you for this opportunity to participate in the 
discussion and I will be happy to answer any questions.
    Chairman Akaka. Thank you very much, Ms. Kichak. And now we 
will hear from Marilee Fitzgerald. Please proceed with your 
statement.

TESTIMONY OF MARILEE FITZGERALD,\1\ DIRECTOR, WORKFORCE ISSUES 
     AND INTERNATIONAL PROGRAMS, U.S DEPARTMENT OF DEFENSE

    Ms. Fitzgerald. Thank you. Good afternoon, Mr. Chairman and 
Ranking Member Voinovich. On behalf of the Secretary of 
Defense, Robert Gates, thank you for inviting us today to 
discuss with you the Department's efforts to enhance 
supervisory excellence, a force readiness issue and a mission 
imperative.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Fitzgerald appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    The growth and development of the Department's workforce, 
including supervisors and managers, is of strategic importance 
to our ability to meet our 21st Century mission requirements, 
and we appreciate your long-standing support and advocacy of 
the Federal civilian workforce as we have moved in this 
direction.
    The Department is facing mission requirements of increasing 
scope, variety, and complexity. To ensure the availability of 
needed talent to meet our future demands, we are conducting a 
deliberative assessment of our current and future workforce 
requirements. This effort will ensure that the Department has 
the right workforce mix, military, civilians, and contractors 
with the right competencies, including our supervisory 
competencies.
    As part of these efforts, the Department is working to 
better employ talent of our civilian personnel to meet today's 
challenges. For example, the Secretary of Defense has created 
the Civilian Expeditionary Workforce, which will provide 
deployable civilian expertise to support efforts in 
Afghanistan, Iraq, and other contingencies. A parallel effort 
is underway to synchronize civilian and military leadership 
training with the goals of ensuring common professional 
training and education between our senior executives and flag 
officers, increasing joint capability for our senior 
executives.
    The Department has achieved much progress and reorienting 
its civilian leadership capabilities. We have adopted a 
leadership framework and published policy that requires that 
leaders be developed in over 20 different competencies that are 
found critical for success in leadership positions. These 
include the development of interpersonal skills, supervising 
others, and providing meaningful performance feedback. Yet, we 
can always improve.
    Supervisory proficiency is critical to individual 
organizational performance, as well as employee motivation, 
engagement, and retention. In February, the Secretary of 
Defense asked our Defense Business Board to investigate and 
recommend ways to improve the supervisory capabilities of the 
Department's career workforce. Their report is due out shortly.
    The Department's inaugural leadership summit being held 
this week in Southbridge, Massachusetts will be the catalyst 
for designing a fresh look at how we improve the Department's 
effort to select, develop, and manage our DOD supervisors. The 
Department is taking a comprehensive view of enhancing 
supervisory excellence at all of its existing training 
programs.
    To this end, we are adopting a four-prong approach. The 
first speaks to getting it right at the beginning, the 
selection of supervisors. The Department will implement better 
selection tools that are strong predictors of supervisory 
excellence.
    The second speaks to tapping into potential, the 
development of supervisors. The Department is on a path to 
develop initial and periodic training every 3 years for all of 
its supervisors, including its executives. Training will 
include a combination of formal training on the job, learning 
and other development opportunities, job rotation, job 
shadowing, and mentoring assignments. It will enhance our 
current framework and specifically in the supervisory 
competency area.
    The next deals with organizing ourselves for success, and 
alignment of our supervisory resources. The Department intends 
to examine the employee-to-supervisor ratios and other 
pertinent factors to determine whether supervisors have the 
time to devote to the job of supervising with distinction. It 
is clear that first-line supervisors have the most important 
impact on employee engagement and productivity.
    And finally, the next step will ensure that something with 
such strategic significance is not left to chance, 
accountability for supervisory excellence. The Department will 
ensure all of its performance appraisal systems make it clear 
that supervisors will be evaluated both on work outcomes and 
how well they manage their staff. This is certainly true of our 
executive performance appraisal system today, but as we 
transition out of our National Security Personnel System (NSPS) 
performance management system, we want to make sure that all of 
our appraisal systems have this requirement.
    The Department is committed to ensuring that we have the 
caliber of supervisory workforce necessary to carry out our 
mission. Supervising people is a privilege and a responsibility 
to preserve and enhance human capabilities under a supervisor's 
care. The Department needs capable leaders who can build strong 
teams in support of our war fighters.
    The Department has had a long and proud tradition of 
training and developing our force. This investment has enabled 
our country to maintain its preeminent war fighting 
capabilities. You can count on the Department to continue its 
focus, investment, and commitment to the development of our 
civilian workforce.
    Thank you again for your interest in our civilian 
leadership and for the opportunity to speak with you today. I 
would be pleased to answer any of your questions.
    Chairman Akaka. Thank you very much, Ms. Fitzgerald. Ms. 
Kichak, my Federal Supervisor Training Act would require more 
effective Federal supervisor training government-wide. I was 
pleased that OPM issued a regulation requiring better 
supervisor training last year and that many agencies, including 
DOD, already provide much of the training required in my bill.
    While this is encouraging, of course more needs to be done. 
As we make progress with government-wide supervisor training, 
what will OPM do to make sure agencies consistently provide 
high quality training to all new supervisors?
    Ms. Kichak. First of all, we are preparing requests for 
reporting back on the delivery of training to supervisors, so 
we will not be doing the kind of informal survey that we did 
for the Subcomittee this year, but will be requesting more 
regular reporting.
    We are also continuing to hold best practices forums. We 
will be holding a series of these forums and will include the 
best practices on a wiki, so that those will be available in 
the future for people to go back and look at. We are going to 
engage with the agencies on doing that so we can take advantage 
of the ones that do things the best.
    So we are going to provide continuous learning to the 
managers of the agencies, including the small agencies, and 
show them what works and what does not work, and then monitor 
some of the provisions of their training, at least how many 
people receive it and if they are complying with the 
regulations.
    Chairman Akaka. Ms. Fitzgerald, DOD employees add to the 
rich cultural diversity in my home state of Hawaii. Your 
testimony states that diversity in your civilian workforce is a 
force readiness issue. Can you talk more about what DOD is 
doing to ensure that a diverse group of DOD civilians is ready 
to take on leadership roles?
    Ms. Fitzgerald. I will, thank you. The Department has put 
its efforts really in three directions. And first of all, I 
want to state that the diversity of the workforce is important 
to our mission. It is not just a compliance issue. It is the 
perspectives that are brought to bear to serve--just to support 
and serve our many mission requirements. It is that kind of 
perspective that is what is going to help the Department move 
forward and so forth. Therefore, the diversity of our force is 
extremely important to us.
    We went at it three ways, not to say that there is not 
other areas to do this. But our efforts looked at one, placing 
more emphasis at the leadership level. It is a leadership 
responsibility to engage this. This is a readiness issue. So in 
the Department, we created a Defense Executive Advisory Board 
that reports directly to the Deputy Secretary of Defense and 
advises him on executive matters, including the diversity of 
the force, not only our senior executives, but the pipeline 
that supports that.
    That board looks at every year what our selection patterns 
are. It looks at the diversity of our selections. It looks at 
the diversity of our placements, to ensure that this stays 
visible with the Secretary. A set of metrics are also in place 
that help us measure our progress in this regard.
    The second pillar is more training and development. We are 
very fortunate to show some great progress in this area. Our 
pipeline is growing more diverse and our GS-13, GS-14 and GS-15 
ranks, our diversity is improving.
    We set out with the proposition that folks, if they 
understood the great challenges and rewards that are in 
leadership, and particularly as they move higher and the 
ability for them to make an impact on our mission and to 
seriously influence its challenges, if they knew more about it, 
perhaps they would choose it. So we are spending a great deal 
more time developing the understanding of DOD, what it means to 
be a supervisor and a leader and how one can exert its 
influence. Approximately, not quite a third, a little short of 
a third of our pipeline talent is quite diverse.
    The third area is exposure, understanding what it means to 
be a supervisor. So we have two great DOD enterprise-wide 
leadership development programs that try and help our employees 
understand what it means to work and serve as a leader in the 
Department of Defense.
    We take them on emergent experiences. They visit our 
combatant commands. Most recently, in fact, next week a group 
of these emerging leaders will be traveling to Kuwait and they 
will spend about 10 days there practicing leadership and 
understanding the mission with our central command 
representatives and leaders.
    So leadership, training, and exposure is our way of 
attempting to try and build a much more diverse pipeline. With 
a diverse pipeline, the opportunities to select a more diverse 
workforce in our senior executive positions is greater and so 
that is how we have been trying to approach it.
    Chairman Akaka. Thank you very much. Ms. Kichak, your 
testimony also addresses the importance of mentoring, 
developing, and retaining a diverse workforce. What do you 
believe supervisors can do to increase their multi-cultural 
understanding in order to provide more effective mentoring?
    Ms. Kichak. I think that there should be training in 
dealing with diverse populations and building a workforce that 
is inclusive and welcomes diversity. It should be a major part 
of management training because there are different cultures and 
there are different responses to different cultures and 
managers need to be aware of that.
    We are also working right now at OPM on building a 
strategic plan for improving diversity in the Federal 
workforce. A large part of that strategic plan will be 
enhancing training. We are developing that strategic plan with 
an interagency task force, and we expect that to be out soon. 
Then we will start implementing some of those provisions, again 
with a major training emphasis.
    Chairman Akaka. Thank you. Ms. Fitzgerald, one of the 
lessons we learned from the implementation of the National 
Security Personnel System at DOD is that communication between 
supervisors and employees is essential to the success of any 
new personnel policy. As DOD develops a new performance 
management system, what is DOD doing to ensure that supervisors 
have the skills necessary to effectively seek input and 
communicate changes to employees?
    Ms. Fitzgerald. Thank you. The building of capacity of our 
supervisors to provide meaningful feedback, engage their 
employees and the right kinds of conversations that build and 
grow and develop their skills is a fundamental area of our 
performance management programs, development programs and 
helping our employees understand how to improve their 
performance management. It exists today for the senior 
executives and the lessons that we learned for NSPS will 
certainly be cascaded to any performance management system that 
we develop.
    As you may know, the Department is on track to try and 
develop a replacement system, one that takes advantage of all 
the positive lessons that we learned from NSPS and overcomes 
some of the shortcomings of that performance management system 
that we had in place. Communication will certainly feature as 
it did prominently then.
    We can assure you that it will be cascaded into our new 
performance systems and as a matter of fact, as we transition 
out of NSPS we require that all of our performance management 
systems that are existing today, those legacy performance 
management systems to which we are returning our employees, 
pick up on these lessons that we have learned, including the 
training and development of better communication, providing our 
employees assistance in writing their performance objectives, 
helping them ensure that there is a line of sight between the 
work that they do and the organizational missions.
    And these things that were critical and viewed as important 
pillars of success in the NSPS performance management system 
will be overlaid onto these existing legacy systems. The 
Secretary put out a message to ensure that happens today.
    Chairman Akaka. Thank you very much. We will have a second 
round. Senator Voinovich, your questions.
    Senator Voinovich. I worked my head off to get NSPS 
established and worked with Gordon England. And you are here 
today telling me that you are going to capture all of those 
good things that were in the program when Department of Defense 
employees are transition back to the General Schedule.
    Why in the devil do you think we wanted to go to the system 
for in the first place? And nobody says anything about our good 
work and I am really unhappy about it. We spent years bringing 
that system in. We even slowed it down. We had a hearing out in 
Hawaii to make sure that the Department was not rushing into 
it. We slowed them down.
    So with all of this good stuff that exists in the National 
Security Personnel System, you want to make sure that you 
preserve it when employees go back to the General Schedule. 
What do you do about the people that are in the highest pay 
category who go back into the General Schedule and their 
salaries are going to be frozen for 2 or 3 years? Do you think 
you are going to be able to retain those people?
    Ms. Fitzgerald. The Department's investment in the National 
Security Personnel System, while I think it was perhaps 
disappointing that we are not in the NSPS today, the lessons 
that we have learned and the opportunities that we had to 
experiment with some flexibilities will, I believe, carry 
through in the efforts that Director Berry is doing Federal 
wide.
    Those lessons that we learned in NSPS, I do not believe, 
and the good things that came out of that will not be lost as 
we transition with a Federal reform effort. The director of the 
Office of Personnel Management has ensured that the lessons 
that we have learned are very much a part of the conversation 
that he is having with his staff on reform, and so I am looking 
forward to seeing the good things continue and even be improved 
upon, because we certainly had lessons that we would have liked 
to have seen improved upon if we had continued in NSPS.
    I am confident that is going to happen. We have been a part 
of those design teams and I think Director Berry's direction is 
in the right place.
    You raised some important issues about the transition, 
moving back out of the General Schedule--moving it back out of 
the NSPS to the General Schedule does pose an issue, certainly 
for those who are now going to come back into the GS and be at 
the top of their pay band, back at the top of their General 
Schedule step.
    There are a couple things about that. One, as they return 
to a grade, the opportunity to leave that--what we call saved 
pay area--can occur as they move up throughout the General 
Schedule. So if they are capped at a GS-12, Step 15, the 
opportunity to move out of that pay cap area would be if they 
advance to GS-13, GS-14 and so on. So over time that may be 
mitigated by their own advancement through the General 
Schedule.
    Certainly those who are at the top of the GS-15, Step 10, 
for example, will have some issues. We are hoping that as we 
design our new--with Director Berry, we have already raised 
this as an issue--that perhaps should be addressed as one of 
the reform efforts. We have brought that to his attention and 
so we will continue to work them. But today they would--as you 
say, Senator, they are going to go back and they would be 
capped at the top step of the General Schedule for a period of 
time until they are either----
    Senator Voinovich. I would like to have a written document 
from you and from John Berry about how you are going to handle 
this situation.
    Ms. Fitzgerald. Sure.
    Senator Voinovich. Some of the complaints that we had is it 
takes a lot of time to do performance evaluation. We should be 
doing performance evaluation period, whether it is pay-for-
performance or not. We added pay-for-performance, as you know, 
in the Defense Department. We have it in the Transportation 
Security Administration (TSA). All these folks that do the TSA 
screening work at the airports, they are under pay-for-
performance.
    After they have gotten through the initial implementation 
phase of pay-for-performance, they seem to be pretty happy with 
the system. You said that it is a leadership obligation, too, 
in terms of diversity. When you do performance evaluation, is 
diversity part of the performance evaluation? Either one of you 
can answer it.
    Ms. Kichak. When we look at managerial capability, it is a 
requirement that managers be able to manage well in a diverse 
workforce. So from that perspective, yes, building a diverse 
workforce is part of the review.
    Senator Voinovich. What I am saying is that you have 
managers who have responsibility for people and directly or 
indirectly have responsibility for bringing people onboard. In 
their evaluation, do you look at whether or not they are paying 
attention to the issue of diversity in terms of their hiring 
practices?
    Ms. Kichak. Yes, we do. It is part of managerial competency 
that we look for in a performance appraisal.
    Senator Voinovich. Is there any recruiting going on that 
you know of where diversity is the target? I have had people 
say to me, sorry, governor or mayor, we cannot find diverse 
people. Do you have programs where you really are reaching out 
and looking around the country to make sure that there is 
recruiting that is going on for all parts of society, making 
sure people are aware of the wonderful opportunities they have 
to come to work in the Federal Government?
    Ms. Kichak. First of all, as part of our diversity 
initiative, we are building those relationships so we know how 
and where to reach out. The second major thing that OPM has 
recently done is notify agencies that we are now accepting of 
collecting data on applicants as far as their race and national 
origin--what their diversity characteristics are. And this will 
enable us to answer the question.
    Often times people say, I did not hire somebody with a 
diverse background because I am not getting applicants that are 
diverse. And we have not known whether that is true or not, but 
now we are taking steps to start to track the composition of 
the applicant pool. That is not the only thing we are doing. We 
are also coming up with strategies for increasing the diversity 
of the pool as part of our----
    Senator Voinovich. Doesn't designating an internship 
program as a diversity tool provide a vehicle for some of that 
to take place so you are able to go out and meet with people 
and talk to them about Federal service?
    Ms. Kichak. Certainly our intern programs provide people of 
diverse backgrounds who are considering Federal employment. 
However, we do not make selections based on the race and 
national origin characteristics.
    So an internship can provide an opportunity to reach out to 
folks. We still need to get them interested and be successful 
in getting them to apply for the Federal jobs.
    Senator Voinovich. Switching subjects, how does OPM and DOD 
ensure that the programs that you are talking about in terms of 
training receive adequate funding? And if I were to look at the 
budgets of the respective agencies, where would I find the 
money for the training?
    Ms. Kichak. We are at the present time not able to have a 
control on agencies' budgets, in a way that guarantees 
allocation of a certain level of resources to training.
    Senator Voinovich. Well, isn't that something that Jeffrey 
Zients and John Berry could get together and try to identify 
training spending.
    Ms. Kichak. John Berry is very interested and that is part 
of the discussions that he is having now as he talks about 
civil service reform. He would really like to see a set-aside 
for training. It is one of his passions. But he is not the man 
who controls the budget or the man who controls Congress. So he 
is having those discussions. He is a great advocate of that and 
so those discussions are ongoing.
    Senator Voinovich. That is really interesting. You do not 
have the flexibility because the way the pay scales work in the 
Federal Government, but when I was governor, we were able to 
work with the unions. When it came time for pay increases--and 
I think Colleen Kelley is here, and she has heard this before--
what we did is we made a deal with the unions that if you gave 
up a nickel in pay, we put in a dime for training, and we 
really developed a very robust training program for our people.
    It was one way that we could guarantee that the money was 
really going for training. And I think that if you do not 
guarantee that, it will not happen, because every time you have 
a budget problem, the first thing that goes out the window is 
training funding. I am going to be interested in hearing from 
Dr. Mattimore in terms of how much money Procter & Gamble sets 
aside for training and how important it is to the future of 
their company.
    Because there are some really good role models out there 
and I think if you are serious about this, you ought to look at 
how do they go about doing these things. That is why successful 
organizations put a whole lot of money into training.
    I am out of my time, Mr. Chairman.
    Ms. Fitzgerald. Senator, in the Department of Defense, to 
help perhaps address that, I mean, you are absolutely right. 
You cannot say that a trained and ready workforce is a mission 
imperative and then use a discretionary form of part of your 
budget. That does not seem to make sense. It is a incongruent 
statement.
    Certainly we have known that on the military side. We 
invest in our training. We do that deliberately and set aside 
funds to do that. On the civilian side, we are less structured 
to do that, but that said, the Secretary has made training and 
development a priority of our civilian workforce and while I am 
not prepared today to talk about exactly how each of our 
components are setting aside money to do training and 
development, I can talk about a couple of specific things that 
he has done.
    For our senior executives, of which we have about 1,200 
currently in the Department of Defense, he has set aside $5 
million per year beginning in Fiscal Year 2010 through the 
budget to try and improve development and training of our 
senior executive members. This includes improving their 
interpersonal skills, ability to supervise folks, developing 
their capability for supervisory excellence, performance 
management and in fact requires it, improving their ability to 
manage a diverse workforce, whether that be of a certain racial 
and ethnic persuasion, or whether it is building a culture or 
having a workforce that is teleworking, where it is very 
different than these new 21st Century environments, are very 
different kinds of environments that we have.
    So that is where that money will be dedicated, providing 
mentorships, 360s and so on. That effort is being cascaded down 
to our components, and again, we can take that for the record 
and tell you how they have organized themselves to serve the 
training requirement.\1\
---------------------------------------------------------------------------
    \1\ The information referenced appears in the Appendix on page 132.
---------------------------------------------------------------------------
    We have also invested in our two major DOD-wide Enterprise 
Leader Development Programs, which are essentially funded by 
the Department. So we probably do not do enough of it, but we 
are certainly trying to organize ourselves better to serve the 
training requirement, again, because we see it as a mission 
imperative.
    On your other point of how the Department does do it, the 
Department takes diversity into consideration through its 
performance management system. For all those who supervise we 
require that they demonstrate how they are building a diverse 
workforce as part of their performance elements. It is 
certainly required for our senior executives and it is required 
for all of our supervisors who have that responsibility for 
building a workforce. And so it is measured through the 
performance appraisal process.
    Senator Voinovich. It is one of the elements that you----
    Ms. Fitzgerald. Yes, it is.
    Chairman Akaka. Thank you. We will have a second round of 
questions. Ms. Kichak, OPM has regulatory oversight authority 
over the Federal Career Intern Program. In a 2005 report, the 
MSPB recommended that OPM more fully exercise its oversight 
role.
    What specific steps has OPM taken to ensure that agencies 
are complying with the merit systems principles and veterans 
preference laws when hiring under the career intern program?
    Ms. Kichak. As part of our January reorganization, we have 
elevated our merit system oversight division to the associate 
director level at OPM. We are giving that more prominence and 
more resources so that the division can increase its oversight 
of the programs we regulate, which includes not just the 
Federal Career Intern Program, but other merit system hiring.
    We are also looking at the rate of use of veterans' 
preference in the Federal Career Intern Program, which is at 15 
percent, which is not the same level that veterans' preference 
is used in other merit staffing, but is still significant. 
Fifteen percent of the Federal Career interns are veterans.
    So we continue to issue guidance and tell agencies the 
policies that are in place, that veterans preference does apply 
in the Federal Career Intern Program, and we continue in our 
audit function.
    Chairman Akaka. The MSPB also found that although the 
Executive Order creating the FCIP requires career interns to 
participate in formal training programs, many agencies provided 
limited or no training at all to career interns.
    Do you believe that agencies are complying with the 
requirement to provide formal training to career interns?
    Ms. Kichak. I believe like all of the programs that we are 
part of, there is uneven application of the requirements. I 
know that many agencies are providing training. Senator 
Voinovich mentioned the Customs and Border Protection folks, 
who have a very stringent training requirement. The program has 
been used at the Internal Revenue Service (IRS), again, another 
agency that does stringent training.
    We have had limited use of the Career Intern Program at OPM 
for some of our professional folks, such as actuaries and 
statisticians. The actuaries have a very stringent training 
program.
    So certainly many agencies are complying with the 
regulations. I am sure there are exceptions to that.
    Chairman Akaka. Ms. Kichak, traditionally public notice is 
the means by which Federal agencies ensure fair, open, and 
transparent competition for jobs. The Federal Career Intern 
Program does not require public notice of job openings, which 
can make it hard for potential applicants to find information 
about opportunities.
    Use of the USAJOBS website is a convenient and low-cost way 
to let a wide applicant pool know about opportunities. Does OPM 
encourage agencies to post career internship openings on 
USAJOBS and what else is OPM doing to improve availability of 
information about the program?
    Ms. Kichak. Well, certainly we encourage the posting of all 
job announcements on USAJOBS. We have our initiative that I 
know that you are well aware of, to make those job 
announcements understandable and to get them down to a length 
that applicants will really read.
    We do not require, as you said, the announcements for the 
Federal Career Intern Program to be on USAJOBS, but we strongly 
encourage that there is open competition and that the jobs are 
announced.
    We are looking at the issue of whether there are cases 
where limited announcements make sense. As you know, for some 
jobs, we get thousands of applications and it makes it very 
hard to process those, but we want a diverse group of 
candidates. We are looking at things like announcing within a 
region not just to one person, but making it available maybe 
within a range of States, a group of universities, or among the 
professional organizations if you are looking for something 
like engineers.
    Those are all things that are under study as part of the 
Administration's initiative to improve the hiring and hiring 
reform. And as those things move forward, we will be in 
discussions with you about some of the ideas we have where we 
can foster competition, because we really do believe in 
competition for Federal jobs and yet make sure that those 
announcements get to places where we can get the most diverse 
and qualified candidates.
    Chairman Akaka. Ms. Fitzgerald, the National Defense 
Authorization Act for Fiscal Year 2010 established the Defense 
Civilian Leadership Program in DOD to recruit and develop a 
more effective acquisition workforce. The law allows DOD to 
recruit current employees as well as individuals outside of 
government.
    What are DOD's plans for recruiting current college seniors 
or recent college graduates for this program?
    Ms. Fitzgerald. Thank you. This is a very exciting 
provision of the NDAA and we are just now beginning to develop 
the framework for this program. This program will be decidedly 
different from those that we have developed before, because 
this program seeks to bring in individuals and hire them based 
upon not only their technical competencies and perhaps some 
other foundational competencies, but it will seek to identify 
their ability to be leaders and to develop them as leaders from 
day one, much like we do in the military.
    So we develop them to be an acquisition specialist, a 
contract specialist, a financial manager, budget analyst, 
personnelist, and at the same time, with the same 
deliberateness, we are developing their leadership capability. 
This program, that is, in the NDAA, offers us that opportunity 
to do that.
    It will be a competitive program, so we will reach broadly 
across our Nation to ensure that our college students and our 
graduates, both undergraduate and graduate, have the 
opportunity to apply. The foundational model that we are using 
currently, again, it is under development, is our Presidential 
Management Fellows Program, where there is rigorous assessment 
coming in, where we do a variety of assessments, including a 
portfolio assessment, opportunities for them to showcase their 
talents in many different ways so that we avoid the temptation 
to place so much emphasis on the technical ability, how good of 
a budget analyst are they, or how well they did in college in 
math and science, and allow us the opportunity to look at some 
other capabilities.
    So we are not ready to tell you about the program in all of 
its details yet, but we do have a framework. We have briefed 
both the House Armed Services Committee and the Senate Armed 
Services Committee on it. They seem to think we are headed in 
the right direction. We look forward to the opportunity to roll 
that out. Thank you.
    Chairman Akaka. Thank you very much. Senator Voinovich, 
your questions.
    Senator Voinovich. One of the things that you need is a set 
of tools to attract people to come to the Federal Government, 
and one of the things that we did several years ago was to 
increase the amount of money in terms of paying off student 
loans for individuals, which is a big deal today, because more 
and more of our students are just hammered with the high costs 
of higher education.
    We went from a cap of $40,000 to $60,000 and from $6,000 a 
year to $10,000 a year. Are either one of you familiar with 
whether or not anybody is using that tool in order to attract 
people into the Federal Government, or are the budgets so 
limited that they never find money to do that?
    Ms. Fitzgerald. Actually, sir, in the Department, we are 
increasing our use of the student loan payment program. I do 
not have the statistics with me today, but I will be happy to 
take that for the record and get you the data on that.\1\ But 
we see that as one of the important incentives in the 
Department to attracting and retaining our workforce.
---------------------------------------------------------------------------
    \1\ The information referenced appears in the Appendix on page 134.
---------------------------------------------------------------------------
    Ms. Kichak. We do a government-wide report on the use of 
student loan repayments annually and it is on the OPM website. 
And every year since the legislation was enacted, there has 
been a substantial increase in the amount of student loans 
repaid and the number of people who are getting those repaid. 
Nonetheless, it remains a small part of total budgets.
    Senator Voinovich. Do you have any information on just 
overall what funding you have dedicated to that program?
    Ms. Fitzgerald. Sure.
    Senator Voinovich. And I am interested in your saying that 
you are using this tool. And additional money has helped?
    Ms. Fitzgerald. Yes.
    Senator Voinovich. Good. Ms. Kichak, as Mr. Palguta 
discusses in his written testimony, Federal agencies, as we can 
testify to, largely neglect internship programs as sources of 
talent when selecting permanent employees. How can OPM work to 
encourage Federal agencies to make greater use of internship 
programs as recruitment tools?
    Mr. Palguta represents the Partnership for Public Service 
(PPS), I believe, and they do a lot of surveys on Fedeeral 
workforce issues. I was interested that PPS is concerned that 
intern programs are not being used enough in terms of selecting 
permanent employees.
    Ms. Kichak. I think you could say we disagree with the 
Partnership for Public Service. We have about 40,000 student 
temporary employees working for the Federal Government in a 
year. Those are students who get a very valuable experience in 
working for the Federal Government, but we do not call them 
interns because we also have the Student Career Experience 
Program (SCEP) where we select students and work with their 
universities to match students' academic studies with their 
work.
    The folks in that program get the opportunity, if they have 
proven to be successful as a SCEP, to convert without 
competition into Federal service. We believe that those 
programs are both serving their needs and that taking 40,000 
student temporary employees and calling them career interns and 
then saying they could compete, could become permanent Federal 
employees, would prevent those folks who have not been able to 
get that experience to compete for the same jobs.
    So we do have intern programs. We have the Presidential 
Management Fellows Program, a very small, leadership program. 
We would like to see some growth in that. We would like 
agencies to use the SCEP program widely because it is a great 
opportunity to match student skills with jobs.
    But we would like to see students continue to have the 
experiences that they get with these summer employments, except 
we would like to be able to see many more people have those 
experiences. So if it is 40,000 one year, maybe there should be 
another 40,000 the next year. Rather than turning these into 
long-term projects, make it clear that, instead of having 
40,000 people for 2 years, you would have had 40,000 people 
each year, 80,000 people in a 2-year period. We have a mix of 
programs and we think that mix of programs works for us.
    Now, having said that, I want to assure you that we are 
continually looking at all of our hiring authorities. We have a 
``cool-team'' at OPM, that has been looking at what students 
like today, and looking at how to improve these programs. We 
want to keep a variety of options open so that we can provide 
opportunities for as many people as possible.
    Senator Voinovich. Well, I can tell you that it is amazing. 
I think all of us Senators have internship programs and you 
start asking people that have been in the Federal service for 
awhile, why are you in the Federal service? Oh, they say, I did 
an internship and I really liked it and I thought it was neat 
and I thought, this is what I want to do.
    So it is a great way, I think, to at least bring people in, 
let them see what is going on and they get fired up, go back to 
school and then when it comes time for them to enter the 
workforce they have had a little experience and that opens the 
door in terms of their being willing and able coming to work 
for the Federal Government.
    Ms. Kichak. Which is exactly why we want to give as many 
people those opportunities as possible.
    Senator Voinovich. Ms. Kichak, in her written testimony, 
Ms. Fitzgerald discusses the Department of Defense's use of 
360-degree review processes where a supervisor is evaluated by 
his or her supervisor, peers and subordinates.
    It sounds to me like a pretty good system. Do you know if 
that is in existence any place else besides the Department of 
Defense?
    Ms. Kichak. Yes, it is. I was just speaking to another 
major agency yesterday that is implementing it. Other agencies 
do it, not every year, but it is at the prerogative of the 
agency on how they evaluate their senior executives. A 360-
degree review process is a very popular method for that segment 
of the population.
    Ms. Fitzgerald. We intend as well to take the 360-degree 
review process. In the Department, we have taken our senior 
executives and identified them into three tiers. Tier 1 is for 
the entry kind of position into the Senior Executive Service 
(SES); Tier 3 being the positions that have the most influence 
in the Department.
    We are going to repeat the 360-degree review process each 
time you enter a new tier position, so it is not a one-time 
assessment and we use it for development purposes, not for 
performance management, but for development--at least the 
employee--the executive has an opportunity to self-reflect, 
consider a wide range of input in that development process and 
the organization also has a chance to co-partner in the 
development of the capabilities.
    Senator Voinovich. One of the things that I have observed 
is that as I have come to know a lot of the people in the 
military, and of what fantastic management and supervisory 
experience they have.
    Ms. Fitzgerald. Yes.
    Senator Voinovich. It is amazing to me. Have you ever 
looked at how they go about developing their leaders, or is it 
because they are in the Army or the Navy or the Marine Corp, 
there is a different environment and not analgous to civilian 
agencies?
    Ms. Fitzgerald. No, there is much to be learned from that. 
In fact, this leadership program that is in the NDAA 2010 is 
going to be built just like our military model is built, hiring 
folks in, believing they can be leaders, deliberately 
developing them as leaders. And the training and development 
that we have underway in the Department, both for this program 
and for our senior executives, are ones in which we are 
comingling with our military partners.
    Going to military education courses, our CAPSTONE, the 
professional military training academies, both officer and 
noncommissioned officer academies--all of these opportunities 
are being leveraged in the Department. In fact, that is a very 
important goal for Secretary Gates, to ensure that there is 
more connection between our military and civilian training.
    And I mentioned in my testimony that we are working on this 
parallel effort to develop that. So no, we are with you, 
Senator. We think that is an important model, long overdue, 
that we have not leveraged the experiences of our military. But 
we intend to do so, and are doing so actually.
    Senator Voinovich. Thank you.
    Ms. Fitzgerald. You are welcome.
    Chairman Akaka. Thank you very much, Senator Voinovich. I 
would like to thank our first panel of witnesses for your 
testimony and your responses. It will certainly help us as we 
continue to deal with employee and supervisor development in 
our Federal workforce. So thank you. Thank you very much.
    Ms. Fitzgerald. Thank you.
    Chairman Akaka. I would now like to call up the second 
panel of witnesses. On our second panel this afternoon, we 
welcome Colleen Kelley, President of the National Treasury 
Employees Union; also J. David Cox, National Secretary-
Treasurer of the American Federation of Government Employees; 
John Palguta, Vice President for Policy at the Partnership for 
Public Service; and Laura Mattimore, the Director of Leadership 
Development at Procter & Gamble.
    It is the custom, as you know, of this Subcommittee to 
swear in the witnesses. Will you please stand and raise your 
right hand? Do you solemnly swear that the testimony you are 
about to give this Subcommittee is the truth, the whole truth 
and nothing but the truth, so help you, God?
    Ms. Kelley. I do.
    Mr. Cox. I do.
    Mr. Palguta. I do.
    Ms. Mattimore. I do.
    Chairman Akaka. Thank you. Let the record note that the 
witnesses answered in the affirmative. I want to let you know, 
our witnesses, that your full statements will be included in 
the record.
    Ms. Kelley, will you please begin with your statement?

TESTIMONY OF COLLEEN M. KELLEY,\1\ NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman Akaka, and 
Ranking Member Voinovich. I appreciate the opportunity to 
appear before you today on these important issues of training, 
mentoring, and interning in the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kelley appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    The National Treasury Employees Union (NTEU) is very 
pleased to support S. 674, the Federal Supervisor Training Act. 
We believe that supervisor training, accountability and 
development are pressing concerns for workforce management in 
the Federal sector. We also believe the lack of proper training 
among managers and supervisors is responsible for some of the 
current problems facing the Federal workforce today.
    For example, in the area of hiring, a 2008 MSPB report 
found little understanding of the various hiring authorities 
and the different requirements that are tied to them. The 
report stated that the authority that was used to hire an 
individual often appeared to be a product of convenience or 
coincidence rather than the result of a thoughtful and 
deliberative choice to effectively use the most appropriate 
hiring authority. The report also noted that 43 percent of 
supervisors involved in hiring said that no one discussed 
training or assessment responsibilities required by different 
hiring authorities with them.
    Another area that needs additional managerial training is 
the implementation of the GS pay system. Despite comments to 
the contrary, non-performers can be denied pay increases or 
terminated, and outstanding performers can be given many 
rewards under the GS system. But supervisors need more training 
on the many flexibilities that are currently available under 
that system.
    NTEU is pleased to see that S. 674 calls for agencies under 
the direction of OPM to develop competencies supervisors are 
expected to meet in managing employees. This will help to 
ensure the effectiveness of the supervisor training programs. 
NTEU would also support adding provisions to provide additional 
training and mentoring to current frontline employees so that 
they could advance in their careers also.
    While sound managerial training is critical, career 
advancement of frontline employees can also greatly enhance the 
effectiveness of Federal agencies. With respect to internships, 
let me begin with the Federal Career Intern Program (FCIP). 
That was proposed and implemented on an interim basis in 2000 
and when it became permanent in 2005, it became so under final 
OPM regs. It was originally billed as a limited use special 
hiring authority designed to provide formally structured 2-year 
training and development internships.
    Instead, the FCIP has become the hiring method of choice 
for too many agencies because it does not require adherence to 
competitive recruitment and selection procedures. In its first 
year, about 400 employees were hired under FCIP. That grew to 
over 7,000 in 2004 and the numbers have increased every year. 
The most recent data we have shows that over 26,000 new hires 
entered the government through FCIP and that number has clearly 
continued to grow.
    Despite its widespread use, the MSPB has identified serious 
problems with this so-called intern program in the 2005 report 
that have already been mentioned. That report includes citing 
weaknesses in pre-hire assessment tools and also in not 
providing training and development activities to career interns 
as required. The report also noted that there is no requirement 
under FCIP for vacancies to be publicly announced, preventing 
veterans preference-eligible candidates from even learning 
about and applying for the positions.
    Mr. Chairman, the FCIP is not an intern program and it 
should be terminated. There are several proposals pending in 
Congress to create new internship programs in government, most 
allowing conversions to Federal service outside of the normal 
competitive process. NTEU supports limited initiatives, 
including targeted internships and scholarships to recruit 
employees who have special fields of expertise that are in 
demand in the government.
    It is NTEU's position that the current Federal Intern 
Programs should be the building blocks for attracting talent to 
the government. The Student Career Experience Program, for 
example, allows the appointment of students to positions that 
are related to their academic field of study.
    We have talked about the Presidential Management Fellows 
Program that allows agencies to recruit outstanding graduate, 
law and doctoral level students who serve for 2 years and can 
become valued members of an agency's workforce. We have no 
problem making exceptions to the normal hiring process to draw 
these talented individuals to public service under these 
limited programs.
    But in general, we support competitive hiring and public 
service for all. With respect to those who argue that hiring is 
too cumbersome under current competitive hiring rules, NTEU 
does support reforming that process, but we remain firmly in 
support of fair competition, equal treatment, veterans 
preference, and adherence to merit principles.
    In summary, I would just reiterate NTEU's support for the 
Supervisor Training Act, our opposition to the Federal Career 
Intern Program, and urge its termination. We support a return 
to competitive hiring in the Federal Government, and support 
greater utilization of our government's existing intern 
programs to recruit talented students and recent graduates.
    I would be glad to answer any questions you have. Thank 
you.
    Chairman Akaka. Thank you very much, Ms. Kelley. Now, Mr. 
Cox, will you please proceed with your statement?

     TESTIMONY OF J. DAVID COX, SR.,\1\ NATIONAL SECRETARY-
TREASURER, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Cox. Chairman Akaka and Ranking Member Voinovich, thank 
you very much for the opportunity to testify today. I would 
like to focus my statement today on the abuse of the Federal 
Career Intern Program (FCIP). The FCIP is the government's most 
widely used and problematic special hiring authority. It is 
essentially a direct hiring program that bypasses open 
competition, veterans preferences, and circumvents career 
ladder promotion opportunities for the incumbent workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cox appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    The FCIP gives agencies enormous discretionary authority to 
hire employees without using the competitive hiring process. 
The American Federation of Government Employees (AFGE) strongly 
objects to the Federal Government's continued use of the FCIP 
because it has nearly superseded the competitive service and 
because it has become a preferred vehicle for favoritism.
    The original purpose of the FCIP was supposedly to attract 
exceptional men and women to the Federal workforce who have 
diverse professional experiences, academic training and 
competencies. Based on reports from our members, however, 
agencies have strayed from this purpose by using the FCIP as a 
closed hiring system that does not reach many qualified members 
of the American public or current Federal employees.
    AFGE does not believe that the Federal Government can 
succeed if its primary hiring process evades the open 
competition requirements set forth in merit system principles 
or simple standards of fairness and hiring. AFGE warned that 
the FCIP would obliterate the rule of competitive hiring when 
it was first proposed. At that time, OPM responded it was only 
part of a series of improvements that OPM intended to make to 
the Federal hiring process.
    Ten years later, much damage already has been done. We 
continue to receive the same message from OPM. In the meantime, 
Federal agencies, such as the Border Patrol, Department of 
Homeland Security (DHS) and Social Security, have used the FCIP 
as the almost exclusive hiring authority for thousands of newly 
hired employees. A 2007 Government Accountability Office (GAO) 
report showed that DHS used the FCIP more than any other 
recruitment tool for permanent hires.
    Agencies looking for an easy way out of responsibility to 
honor veterans preference and open competition have changed the 
purpose of the FCIP. It now represents the unrestricted use of 
a hiring authority and is extremely subjective and grants 
managers a degree of discretion that should not exist in the 
Federal Government.
    Further, managers have total control over newly hired 
employees because of the absence of procedural due process 
protections such as adverse action appeal rights and a 
probationary period that is double the length of new hired 
employees under competitive processes. Combined with the FCIP's 
lack of transparency, the above problems have turned the FCIP 
into a step backwards from the basic civil service protections.
    AFGE has urged the Obama Administration to eliminate the 
FCIP, limit it to a small number of positions, or revise the 
program significantly in order to strike a more appropriate 
balance between the need for hiring flexibility and the 
imperative to uphold the principles of transparency and 
fairness in Federal hiring.
    AFGE is extremely sensitive to agencies' pleas with regard 
to expedited hiring, especially in the context of insourcing 
jobs that were inappropriately outsourced in the last decade, 
with the recognition that each full-time equivalent position 
insource saves the Federal Government approximately $40,000 a 
year. It has become routine for agencies to complain that the 
competitive hiring process is somber and sometimes consuming 
and to use this as an excuse either to resist or delay 
insourcing or to revert to non-competitive hiring processes, 
such as the FCIP.
    AFGE does support the Administration's effort to modernize 
and expedite the competitive hiring process and we are hopeful 
with the proper training and resources managers at agencies 
throughout the Federal Government will make use of the more 
user-friendly procedures to uphold the merit system and 
veterans preference.
    AFGE urges the Subcomittee to enact legislation that would 
restrict the use and abuse of direct hiring authorities in 
general and the Federal Career Intern Program in particular. 
The FCIP makes a mockery of the merit system and its promise of 
open competition for Federal jobs as well as veterans 
preference.
    Numerical limits and other restrictions on the FCIP should 
be accompanied by hiring reforms and increase resources 
available to agency human resource offices to expedite both 
insourcing and the hiring of the next generation of Federal 
employees. Once hired, these new Federal employees should be 
given every opportunity to succeed, including access to well-
managed mentoring programs. Mandated training for managers and 
supervisors, along with restrictions on non-competitive direct 
hiring, will also help ensure that the Federal Government 
workforce continues to be a source of pride for all Americans. 
Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Mr. Cox. Mr. Palguta, 
please proceed with your statement.

   TESTIMONY OF JOHN PALGUTA,\1\ VICE PRESIDENT FOR POLICY, 
                 PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Palguta. Chairman Akaka and Ranking Member Voinovich, 
thank you very much for the opportunity to appear today. As you 
know, I am Vice President for Policy at the Partnership for 
Public Service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Palguta appears in the Appendix 
on page 71.
---------------------------------------------------------------------------
    Prior to joining the Partnership, however, I did spend over 
30 years as a career employee of the Federal Government as a 
human resource professional and I had the privilege to serve as 
a career member of the Senior Executive Service as Director of 
the Office of Policy and Evaluation at the Merit Systems 
Protection Board.
    The topic of today's hearing is of vital importance to 
effective and efficient operation of our government and one in 
which the Partnership has a strong and ongoing interest. The 
willingness and capability of the Federal Government to invest 
in the growth and development of its most valuable asset, 
Federal employees and supervisors, is not a sexy topic, but it 
is one that is very important and richly deserves the attention 
that it has received from this Subcommittee. Your work on this 
issue is both needed and timely, and we thank you for the 
tremendous work of the Subcommittee.
    In my opening remarks, I would like to touch very quickly 
on four issues that are expanded upon in my written testimony. 
First, I think it has been well established already in this 
conversation that we do have cause for concern about the 
ability of our managers and supervisors to carry out their 
responsibilities. I would simply add a couple of quick 
examples.
    We at the Partnership have--since 2003, developed a Best 
Places to Work in the Federal Government ranking based on 
employee survey data gathered by the Office of Personnel 
Management. The rankings are based on employee satisfaction and 
we have done analyses to find out what drives that 
satisfaction, and what we have consistently found is that the 
largest variable that predicts satisfaction is employee views 
of their supervisor.
    As the views decline, so does job satisfaction. And this is 
not about happy employees. It is about engaged, committed 
employees getting the work of the organization done. This is 
about effective government. In our 2008 report, Elevating Our 
Federal Workforce, over half of the chief human capital 
officers we interviewed throughout government thought that 
their managers possessed the managerial competencies they 
needed to only a moderate or limited extent, and of course, 
over the next 5 years, a third to half of supervisors will 
leave, both an issue, but also an opportunity.
    We do have some solutions at hand. This is the second 
point. OPM's recent regulations for Federal supervisory 
training are a good step. We also strongly support S. 674, the 
Federal Supervisor Training Act, which will put some of those 
requirements into law and increase accountability for results 
by requiring periodic reports to and oversight by OPM. Senator 
Akaka, thank you for introducing this bill.
    Third point, the Federal Career Intern Program, it was put 
into place, as already noted, in 2003 for two purposes. One, 
make sure that we are recruiting and selecting exceptional 
employees for careers in public service, and two, to provide 
those employees participation in a formal program of training 
and job assignments.
    It really, in my view, is not an intern program, as most 
people currently think. It was a hiring authority put into 
place and with a specific outcome to be desired, and as already 
noted, it has become quite popular. In 2009, there were over 
26,000 hires under the Federal Career Intern Program out of 
142,000 hires overall.
    I think the popularity in part is because from an agency 
perspective--and my lenses on this world are through an human 
resources (HR) perspective and a manager's perspective--I think 
it is popular because it works for the agencies. I would be 
quick to note, however, that it was very clear in the Executive 
Order that veterans preference applies, as do the merit 
principles, and if we have agencies that are not adhering to 
the merit principles in application, then we do have a problem 
that should be dealt with as a violation of principles. But 
that was not a problem of the Career Intern Program.
    The fourth point is that we should not forget about the 
untapped potential of student internships. Senator Voinovich is 
right, we have mentioned at the Partnership that even among the 
Student Career Experience Program that Ms. Kichak mentioned, 
which has a conversion to permanent employment option, even if 
you look at just those individuals who have served under the 
SCEP appointment authority, only 25 percent of them are 
converted and the private sector equivalent would be 50 
percent.
    So in conclusion, steps can and must be taken to ensure 
that the Federal Government is investing in the training and 
development of its workforce. S. 674, the Federal Supervisor 
Training Act, is one of those important steps. And I would also 
want to mention, of course, very quickly Senator Voinovich and 
Senator Akaka, your bill on the hiring process, I think is also 
a very important component to this and I commend you there.
    I thank you for this opportunity and I am happy to answer 
any questions. Thank you.
    Chairman Akaka. Thank you very much, Mr. Palguta. Will you 
please proceed with your statement, Dr. Mattimore?

    1TESTIMONY OF LAURA K. MATTIMORE, PH.D.,\1\ DIRECTOR OF 
            LEADERSHIP DEVELOPMENT, PROCTER & GAMBLE

    Ms. Mattimore. Chairman Akaka and Ranking Member Voinovich, 
thank you for inviting me to testify this afternoon. I am the 
Director of Leadership Development at Procter & Gamble (P&G), 
where I manage the processes and systems that we use to develop 
leaders at all levels in the company.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Mattimore appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    As you may know, P&G is the largest consumer products 
company in the world, with 127,000 employees working in 80 
countries on brands like Pampers, Tide, Bounty, Pantene, 
Duracell, Olay, just to name a few. Training and developing 
leaders is a particularly important, strategic imperative for 
P&G.
    I want to highlight a couple of key concepts that are 
critical to our approach to leadership development. The first 
is our company's purpose. Our stated company purpose is to 
touch and improve consumers' lives now and for generations to 
come, and it is the foundation of our leadership development. 
We attract and retain people who want meaning in their 
professional lives and we feel like they find a connection to 
our company purpose.
    Second is build from within. We are one of the last large 
companies that truly is a build-from-within culture, so our 
senior leadership is almost entirely made up of people who 
spent their whole careers at P&G. That happens not just at the 
executive levels, but at all levels. In fact, less than 5 
percent of our employees are hired with outside experience. Our 
success depends entirely on the strength of our talent 
pipeline.
    Our leadership development starts with recruiting, so we 
seek to hire the best university graduates and bring them in at 
entry level. Last year alone, we had over 200,000 applicants in 
the United States for positions and we hired less than 1 
percent of those, so we are very selective at the outset.
    Once onboard, we invest significantly in training, training 
of technical, functional and leadership skills throughout our 
employees' careers. For those at the associate director and 
above, we offer programs specifically on management and 
leadership, where they receive direct instruction and training 
from our most senior executive and from external contacts and 
thought leaders.
    Something that is very unique about P&G in this area is the 
engagement of our senior leaders as trainers. Our chief 
executive officer (CEO), our board members, our other senior 
executives spend a significant amount of time training. In 
fact, their offices are adjacent to our corporate training 
center so they can readily come back and forth and teach and 
participate in learning events.
    They also recruit actively on college campuses and serve as 
mentors for our young managers. Over time, we have created a 
learning culture where our leaders teach, mentor, and coach 
other leaders at all levels of the company. We not only plan 
assignments, but we also plan careers over time so that our 
employees have the opportunities to develop breadth and depth 
of experience.
    One of the tools that we use for this is our Work and 
Development Plan. These plans are jointly developed by every 
P&G employee and his or her manager and reviewed quarterly. In 
these plans, employees prioritize their work for the coming 
year, they set goals, they identify their career plans and 
their responsibilities, and they identify how they are going to 
leverage their strengths and develop their opportunities in 
specific areas.
    In terms of executive developments overseen by our chairman 
and CEO, Bob McDonald, Mr. McDonald meets regularly with the 
board of directors to review our leadership needs and do multi-
generational succession planning for key management positions. 
He also holds regular planning sessions with members of our 
senior team to do further executive staffing, review individual 
performance, plan next assignments and identify those mid-level 
career employees who are on path for general manager roles in 
the company.
    In terms of performance, every employee at P&G, from the 
most junior recruits to our CEO, is evaluated for performance 
and results and those evaluations feed into their compensation 
and eligibility for promotion. For all employees, performance 
is measured against the key work priorities that are called out 
in the work and development plans.
    Employees are held accountable for two principle areas, 
building the business and building the organization. For those 
with profit and loss responsibility, a performance score card 
is also completed which assesses the leader's business and 
organizational performance. We use objective data on six to 100 
key business metrics and an additional 11 organizational 
metrics to measure their performance.
    In terms of evaluating our talent and leadership 
development programs, there are eight key talent metrics which 
are detailed in the written statement, but a number of these we 
look at and track rigorously, including bench strength, flow 
through, our pipeline, interchange, continuity, something we 
call constellation and sequencing of our business teams, and 
then certainly diversity.
    P&G's rigorous leadership development program yields three 
significant outcomes that we are looking to achieve. First, all 
of our strategic jobs at P&G are filled by our top talent and 
the bench is deep to fill those positions in the future. 
Second, we have a globally diverse organization and leadership 
team that reflects our consumers.
    Third, our leadership development efforts produce multi-
disciplinary leaders with the capabilities needed to succeed 
today and in the future.
    In conclusion, the future of Procter & Gamble depends on 
our investment in leadership development today. We take pride 
in the processes and policies we have developed that allow us 
to recruit, train, and develop talent at all levels of our 
company.
    Thank you again for inviting me to testify this afternoon 
and I look forward to answering any questions.
    Chairman Akaka. Thank you very much, Dr. Mattimore. I have 
a question for both Colleen Kelley and David Cox. As I noted in 
my opening statement, a wide range of both labor and management 
groups, including both of your unions, support my Federal 
Supervisor Training Act. As representatives of organized labor, 
why do you feel that increased training of supervisors in the 
Federal Government is important and how do you believe it will 
benefit your members? Ms. Kelley.
    Ms. Kelley. Well, I think it is pretty well documented that 
the closest working relationship is between frontline managers 
and their frontline employees and vice versa. Very often, as 
someone else mentioned, it might have been you, Senator 
Voinovich, who said that very often those who are promoted into 
management positions are promoted because they are really good 
at the technical job that they do, and that there is therefore, 
an assumption that they have all the other skills that they 
need to appropriately manage and to lead.
    And I think most of them have the ability to learn those 
skills, but those skills do not come naturally for everyone, 
and especially so just because you are really good at your 
technical job. So I think because frontline employees look at 
their frontline manager for not only support and guidance in 
achieving the mission of the agency, but also in what they 
should look at as value for their agency, as well as 
opportunities to advance their own career. That frontline 
manager is the person that they are looking to. So for them to 
be seen as someone who can lead as well as manage and can help 
them do the technical parts of their job, I just think that is 
critical, and it is going to help them also someday, if for 
example, maybe they would like to be a supervisor, knowing that 
they would get the training and support they need.
    There are many frontline employees who I think would be 
really good managers, but they recognize they do not have those 
skills and they do not see a program in place in their agency 
to help them acquire them.
    Chairman Akaka. Thank you. Mr. Cox.
    Mr. Cox. Mr. Chairman, I frequently have said that a bad 
supervisor was our best membership recruitment tool, but I have 
also said that a bad supervisor creates more problems than it 
is worth for labor and for management. Training of supervisors 
is imperative, and not just the technical skills. The 
supervisor should be able to mentor employees, to maybe one day 
be another manager of some type, but to develop that employee 
to be the best that they can be where they may move in either 
way, vertically or horizontally as an employee and in the 
process of that organization.
    In developing and training supervisors, again we all get 
jobs for various reasons, but we do not always come with the 
skills necessary to do the job appropriately. And so I think 
constant training, teaching people how to mentor other people, 
how to get employees to do the right thing and to train 
employees in a proper manner, those are good supervisors and 
those are labor's best friends, those that manage properly.
    Chairman Akaka. Ms. Kelley and Mr. Cox, I have been 
particularly concerned with the use of the Federal Career 
Intern Program to hire frontline workers who receive very 
little focused training. I understand that CBP and the Federal 
Protective Service (FPS) hire most entry-level employees 
through that program. For these types of law enforcement 
positions, the military training that veterans have would put 
them in a strong position in the competitive hiring process.
    Could you address the effect the use of FCIP has on 
veterans' ability to compete for these positions?
    Ms. Kelley. I think it plays itself out in a number of 
ways. First of all, when CBP talks about the training that they 
do as part of FCIP, the training that they provide to these 
officers is at the Federal Law Enforcement Academy and it is 
training that has always been provided for their jobs.
    There is nothing specific or special about it because it is 
under the FCIP. There is not a 2-year training program or 
anything that special that is required under the legislation. 
And when it comes to the veterans preference issue, while they 
probably are reporting inaccurately that there is a good 
percentage of hires that come from the military, there is no 
way to know how many are being passed over. Because if they 
were using the competitive process that requires veterans 
preference, it not only provides for points to be added to 
their score for consideration, but if the agency wants to pass 
over them to select another applicant, they have to report that 
to OPM and get approval to pass over that veteran.
    That is not true under the FCIP. So there is no data that 
shows how many veterans are not being given consideration as 
they would be if they were using a competitive process. So the 
good news is there is whatever percentage of veterans in CBP, 
but I think the bad news for the agency, as well as for the 
fairness of the process, is that there are many that are being 
overlooked and not being given a fair competitive opportunity 
to be hired into those positions as the law intended.
    Chairman Akaka. Thank you, Ms. Kelley. Mr. Cox.
    Mr. Cox. While Ms. Kelley knows much about the Customs and 
Border Patrol folks, I know more about Border Patrol folks, 
just the Border Patrol.
    Ms. Kelley. It is all CBP.
    Mr. Cox. All the entities that we represent. And in the 
Border Patrol high numbers of them are from the military. They 
are veterans. But I would echo again what Ms. Kelley has said. 
Without reporting to OPM, I do not think that there is any 
viable data to know whether veterans are being passed over.
    Again, while there is a large pool of those employees that 
are veterans, again, the data is still not showing that 
veterans preference is being followed, especially the various 
point systems.
    Ms. Kelley. Mr. Chairman, if I could add, it is very clear 
to me that agencies do use the FCIP to get around veterans 
preference. There was a recent example just this week, a report 
issued by the Inspector General (IG) of the Environmental 
Protection Agency (EPA), where they filled four positions using 
the FCIP and there is an email reported on in this report where 
the manager reports--and this is a quote--the email says that 
they use the FCIP because they did not want to ``risk losing 
the candidates we want to hire who may get blocked by veterans 
via USAJOBS.''
    And that is why they used FCIP and that is documented in 
their own email. So they use it. They use this FCIP to get 
around and to avoid veterans preference. So I would like to 
submit this IG report for the record with your permission.
    Chairman Akaka. Thank you very much. It will be included in 
the record.\1\
---------------------------------------------------------------------------
    \1\ The EPA report submitted by Ms. Kelley appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    Well, let me then look to a second round and Senator 
Voinovich, will you please proceed with your questions.
    Senator Voinovich. Ms. Kelley, like you, I was concerned to 
learn that the Customs and Border Protection uses the Federal 
Career Intern Program to hire all entry-level Border Patrol 
agents and Customs and Border Protection officers. So I asked 
my staff to dig deeper into CBP's use of the authority and we 
have a chart.\2\
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Voinovich appears in the 
Appendix on page 135.
---------------------------------------------------------------------------
    I am going to get up and go over it, but it details the 
evaluation process used by CBP when using FCIP. And preliminary 
to going over this chart, one of the things that we fail to do 
as legislators is to give consideration to the management and 
employment challenges that we will have when we create new 
agencies. And one of the questions I would like to know is what 
agencies are really using this authority, like CBP is using 
FCIP for just about all entry-level law enforcement personnel?
    The issue then becomes why are they doing it? I know 
several years ago when we passed Part D of Medicare, I think 
the Center for Medicare and Medicaid Services (CMS) hired about 
500 people; I am not sure. We gave them some authority because 
they had to hire actuaries and support staff. I think they went 
to OPM and got direct hire authority to go out around to the 
universities and so forth, to hire quickly.
    So I am interested in that, but let me just go over this. 
Public notice of Border Protection Officers (BPOs) vacancies by 
USAJOBS, then they have an assessment of an applicants' job-
related competencies using a logical reasoning test developed 
by CBP psychologists in accordance with Federal testing 
policies, an examination of candidate experience record. 
Applicants also receive an artificial language or Spanish 
language test.
    Next applicants receive structured scenario-based oral 
interviews before three BPOs who have been trained to interview 
according to standardized procedures for interviewing and 
rating candidates, then applicants are scored on test results 
and veterans preferences and are certified and selected in 
accordance with OPM's delegated examining operations handbook.
    Then you have BPO interns undergo training, including 55-
day basic training, 40-day Spanish language training, 36-week 
post academy training, and 12-week national field training. And 
then they have the interns undergo panel reviews at the 12- and 
20-month mark, and are only recommended for conversion if the 
panels determine their performance is satisfactory.
    In Fiscal Year 2009, 64 percent of the BPO interns received 
conversion. Now, I do not have the demographic data on the ones 
that got through the system and I am going to be investigating 
what the diversity is and what the veterans composition is and 
so forth. But I think that you and Mr. Cox, particularly Mr. 
Cox, you just hammer this and maybe you are right. But it seems 
to me that it is our obligation to really get into this issue 
and start looking at who is using it and how they are using it 
and if the reason is that we have asked them to hire a bunch of 
people and the current system does not allow them to get the 
job done and they are turning to this authority, then we ought 
to take that into consideration.
    Now, Mr. Palguta, you have been watching this. Tell me, 
what are your observations?
    Mr. Palguta. Several, Senator. First, let me just comment 
on this process. This is an assessment process that really is a 
role model just from a viewpoint of assessment. If most 
agencies were this rigorous about making sure that the people 
they are considering are well matched to the job, we would be 
in a much better place than we are.
    So as an assessment process, this is a very good one, I 
believe. As I said, the Executive Order that President Clinton 
signed setting up the FCIP was explicit, veterans preference 
applies. In the case of CBP here, they applied the preference 
in accord with the delegated examining handbook from OPM, which 
means 30 percent disabled vets get first consideration. Other 
preference eligibles get priority consideration before non-
veterans with a comparable rating.
    I know that CBP also does recruit from veteran discharge 
centers because the experience of veterans is something 
valuable to them. Overall, Department of Homeland Security, 25 
percent of their workforce are veterans. So I do not think they 
are anti-veteran in any way and to me this is a good 
illustration of the application of merit system principles. 
Merit system principles which apply to the Federal Career 
Intern Program basically say you go about matching the best 
applicants to the job, taking into account veterans preference 
and diversity.
    I think in this case I do not see the problem here. Colleen 
did mention the EPA example. I read the Inspector General's 
report and what they found was not that the FCIP was violated, 
but that these four--well, these managers, in the case of four 
applicants, committed a prohibitive personnel practice. That 
sort of commission of a prohibitive personnel practice can 
occur in a career merit promotion program action or any other 
hiring action and I think that has to be corrected.
    But there is nothing in the Executive Order or the way the 
Federal Career Intern Program is supposed to operate that is 
inconsistent with veterans preference or the merit principles. 
As I said, I think for a lot of the agencies, it simply works 
for them and the biggest users traditionally have been Defense, 
Veterans Administration, Homeland Security. Each of those 
agencies are well represented in terms of veterans and I think 
they try hard to get the best people into the job.
    Ms. Kelley. Senator Voinovich, if I could just add to other 
agencies. CBP is a big user of the FCIP, but the IRS hires 
almost all of their revenue agents today using the FCIP. The 
Federal Deposit Insurance Corporation (FDIC) is now hiring 
positions called financial institution specialists and they are 
only using FCIP.
    And again, what FCIP does not require is a posting, so that 
everyone knows that the positions are available, including 
veterans, and it does not require that the points are added for 
veterans preference.
    Senator Voinovich. Where do they get their names?
    Ms. Kelley. They can post at one university or in one State 
or in one city for one day. There is no requirement, as there 
is under a competitive process, for an open posting for a 
certain number of days so that the population at large has 
access to those, or that veterans or whomever it is that is 
looking for it.
    In the EPA case, they posted the positions for 2 days. Now, 
as Mr. Palguta said, the violation was not about finding 
anything wrong with the FCIP, and that was not my point in 
entering it into evidence. But I want you to read the whole 
report because what the report says is that the agency 
acknowledged they used FCIP so that they did not risk losing 
candidates who may get blocked by veterans via USAJOBS.
    Well, that is pretty clear that they were trying to avoid 
veterans preference. I mean, you cannot get much clearer than 
that, and that is a quote in the report from the IG. And that 
is the issue, is the misuse of them.
    Senator Voinovich. Yes, but what they are doing is they are 
violating the order that created the FCIP in the first place. 
It seems to me that the problem basically is in terms of 
oversight as to whether or not they are following the rules 
that have been laid out for them and not using it, as you 
mention, to try to get around something that they find to be 
inconvenient.
    Ms. Kelley. Well, that is part of the problem, but I think 
the bigger part of the problem is why have a process in place 
that does not--that is not set up as a competitive merit-based 
process that honors veterans preference as intended, including 
having to be able to respond to why you pass over a veteran. I 
mean, why even have a system like that in place?
    Senator Voinovich. It would seem to me that probably for 
the benefit of this Subcomittee, that you get the people in 
that are really using this authority to find out why they are 
using this system rather than the regular hiring process, and 
is it because of what you are saying; they are trying to avoid 
something, or do they find that the system that we now have in 
place, particularly where they need to hire a bunch of people, 
is not working.
    That is basically it, are they using this because the 
current system does not allow them to get the job done?
    Ms. Kelley. Well, I would say two things to that. In 
another MSPB report says that the reason the agencies claim 
they use it is because it is faster, because they do not have 
to do all the things in a competitive process, and so the 
process is faster. But they also say that it is not because 
they get the best people on that list to be able to select 
from.
    And I understand your example, Senator Voinovich, about if 
an agency all of a sudden has to hire to get up and running or 
something. That is not the case in Customs and Border 
Protection. They hire these officers every month of every year 
on a regular basis. Were there some spurts where they had to do 
some bigger hiring than others? Yes, but it is an occupation 
that is the major occupation in the agency, and the IRS revenue 
agents are hired every year, every pay period in the IRS. So it 
is not like a surprise that all of a sudden they need to hire 
revenue agents.
    Senator Voinovich. It seems to me that what you want to do 
is to get the people that run the IRS and others to come in and 
talk about it. What is the reason for it? I can tell you one 
thing, that the pressure to hire these border protection staff, 
it is a lot of pressure. I mean, right now we are involved in 
an enormous brouhaha about the border down in Arizona and I 
read Senator Kyl and Senator McCain's recommendation and they 
want all these people hired that fast.
    It is just the fact that we do not give enough 
consideration to some of these implementation issues. So you 
may be completely right in your testimony, but it seems that 
before we just say this is bad, we ought to go in and find out 
where the abuse is taking place and can these problems be 
corrected? And the most important thing is why are they using 
this system rather than the normal process and what is wrong 
with the system that we have?
    I mean, Senator Akaka and I are trying to improve USAJOBS, 
which it is just archaic. I have people around here who say 
that they apply for positions through USAJOBS and agencies do 
not acknowledge they received the application. They do not know 
whether they are on or they are off the list of candidates. I 
will bet you I know a dozen people who said to me that they 
wanted to work for the Federal Government but never heard under 
the USAJOBS whether they were even being considered. They found 
another job. They took the job and then afterwards found out 
that they could have got the job with the Federal Government.
    So there is something wrong with this. Then I also hear 
complaints from people who say forget USAJOBS. Unless you know 
somebody in the agency that is in the inside, you are not going 
to get the job. And then I also have heard where some of the 
agencies will post the job announcement on USAJOBS over a 
holiday period for a short time period so that there are not 
very many applicants and they end up getting the people that 
they want.
    So I think this is something that is maybe worthy of 
looking at the big picture and seeing where we are right now on 
what we are talking about today.
    Ms. Kelley. I would agree that USAJOBS needs to be made 
friendlier to applicants; that is for sure. But the fact that 
agencies use FCIP as their primary method of hiring is a 
serious problem and the FCIP is not an intern program. It is a 
misnomer and the agencies hide behind that to use it----
    Senator Voinovich. Well, I think that we ought to call it 
for what it is and maybe it is a better system than the one we 
got by using USAJOBS. All I know is I think we ought to really 
look at this and just see how it all plays out.
    I have taken more than my time.
    Chairman Akaka. Thank you very much, Senator Voinovich. Let 
me continue with questions to Dr. Mattimore. I was impressed to 
learn of the Work and Development Plans (W&DP) that Procter & 
Gamble employees and managers establish annually. Can you 
explain the process involved in developing these plans and the 
benefits they provide to employees and managers?
    Ms. Mattimore. Sure. First of all, I will say that the Work 
and Development Plan process is one that we use consistently 
around the world and at all levels. So whether you are an 
administrator or whether you are a vice president, we use the 
same process. And the process requires the employee to layout 
what the work priorities will be for the coming year. They work 
that with their manager to be clear on what those priorities 
are. They have clear deliverables and measures associated with 
those priorities.
    That is the work plan part of the plan itself. And then 
there is a career and development portion of the W&DP as well, 
so the career portion, as the individual indicates, what are 
their career aspirations and what kind of training does the 
individual believe that they need in order to prepare them for 
that career?
    And then the strengths and opportunities, the individual 
works with their manager to document what are the strengths 
that the individual can further leverage as they think about 
their work plan for the coming year, and then what are the 
development opportunities that they want to work on? What is 
the individual going to do to work on those and what is the 
manager going to do to support their ongoing development?
    So that plan on an annual basis is put together and then it 
is reviewed quarterly over the years. So it becomes kind of a 
living contract between the employee and the manager and it is 
something that we use consistently. And we have found in our 
research that the document helps employees to have clear line 
of sight between what it is that they do and their daily work, 
how that relates then to the company's strategies and 
objectives in the company's greater purpose.
    And so it has been an instrumental tool for us in terms of 
driving employees to have that connection with the greater 
company.
    Senator Akaka. Thank you. Mr. Palguta, each year the 
Partnership for Public Service publishes the Best Places to 
Work in the Federal Government rankings. Your statement notes 
that the No. 1 predictor of employee satisfaction is attitudes 
toward the agency supervisors.
    I would like to hear more about this finding, including 
your views on the connection between morale and supervisor 
training.
    Mr. Palguta. Thank you very much. I would love to talk 
about that. Just very quickly, the Best Places rankings are 
based--first of all, on the positive answers to the question of 
how satisfied are you with your job, how satisfied are you with 
your organization, and would you recommend your organization as 
a place to work?
    We have other questions in the OPM survey, including 13 
questions that explore different perceptions about supervisors 
and leaders and there is a clear link between when employees 
have positive attitudes about the job that their supervisor 
does, the type of communication they receive, and the feedback 
they get about their performance, then their job satisfaction, 
and their willingness to recommend the organization to others 
as a place to work go up together.
    And what we have found is that the importance of that is 
not that we want employees to be happy. We do. But the 
importance is that job satisfaction, engagement, and commitment 
is also related to organizational effectiveness so that the 
more engaged employees are--and it stands to reason, if you are 
unhappy with your supervisor, you are miserable coming to the 
job every day, you are probably not giving it your best effort 
and conversely, when you have faith in your supervisor, when 
there is good communication, when your own training and 
development as an employee is supported by your supervisor, 
your commitment goes up, your engagement in the work of the 
organization goes up.
    So as I say, it really is about effective operations of 
government and when we talk to agencies, and we do on many 
occasions now as agencies try to figure out how they can 
improve their ranking in the Best Places, one of the things we 
consistently tell them is that you need to focus on your 
supervisors and your managers and your leadership. If you can 
improve through training, through development, through 
selection of people into the supervisory ranks, if you can 
improve the quality of your supervisors, you are going to 
improve your score on the Best Places, but more than that, you 
are going to improve the ability of the agency to get its 
mission accomplished for the American people.
    Chairman Akaka. Thank you. Thank you very much. Mr. Cox, as 
you know, DOD is implementing a new supervisor training program 
created by the National Defense Authorization Act. AFGE 
represents a large number of employees at the Department of 
Defense. What features would you like to see in the program?
    Mr. Cox. I would certainly want to see features in the 
program that deal on good labor relations, that supervisors 
understand collective bargaining agreements and abide by the 
agreements whether they like them or not. Also that they abide 
by the law.
    The Federal Government spends a great deal of money at 
times in Equal Employment Opportunity (EEO) complaints, as well 
as in grievances and those type things. So I believe 
supervisors being properly trained how to interact with 
employees and to deal with them and their union representatives 
will be very important.
    And I would again go back to a supervisor should constantly 
be mentoring an employee to be the absolute best that they can 
be. You may be a housekeeping aide in the Veterans Affairs (VA) 
or you may be a scientist at EPA, but there should be someone 
that is constantly giving you the feedback--the good and the 
bad--about how to improve yourself to be the best that you can 
be in your job every day so that when you complete that job, 
you feel really great about what you perform for the American 
public at the end of the day.
    And I think that is what many people are looking for in job 
satisfaction and that they look for in supervisor/employee 
relations.
    Chairman Akaka. Thank you very much. Senator Voinovich, do 
you have further questions?
    Senator Voinovich. Yes, I do. Do you know what percentage 
of the budget goes for training?
    Ms. Mattimore. I do not have any specifics on numbers, but 
I can give you a couple of thoughts relative to the discussion. 
There is a couple of things that we do in order to protect 
training resources: We centralized the budgets that go towards 
general skills and what I would call career phase training.
    So when people join the company, when they take on 
responsibility for managing other people and they are first 
leading an organization, that money is protected; it is not 
competing with other initiatives or budgets. So that money is 
centralized.
    And then the functions in the business units, set-aside 
money for training, and they are able to make choices about 
what they do. But a couple of additional things we do, one is 
we have a community of trainers that comes together several 
times a year to talk about what their training needs are, and 
that group pools resources. So across the different divisions 
of our company, a lot of times the needs are very much the same 
and so we pool resources and design training one time and use 
it across the critical mass of the company.
    Senator Voinovich. Would it be 1 percent or 2 percent or 3 
percent; do you have any idea?
    Ms. Mattimore. I would have to come back to you with a 
number.
    Senator Voinovich. I would like to know just what it is.
    Ms. Mattimore. OK.
    Senator Voinovich. Because I know that many of the top 
companies, they do spend a great deal of money on training 
because I think----
    Ms. Mattimore. We spend a great deal and I would have to 
give you the specifics, like straight numbers.
    Senator Voinovich. Is it something that P&G does not want 
anybody to know about from a competition standpoint?
    Ms. Mattimore. In fact, during these most recent difficult 
financial times, we have not cut back on training at all. We 
have been more efficient about how we use our training dollars, 
so we have cut back on travel for training. But we are still 
continuing to do live distance training using virtual media, so 
we have not at all cut back on our training efforts.
    Senator Voinovich. The other thing that I am fascinated 
about, and I do not have the answer and maybe if Ms. Kichak 
were here she could answer it, but I just wonder what 
percentage of the training that is being done is being done by 
Federal employees. Because one of the things that I did when I 
was governor is we instituted Total Quality Management (TQM). 
We call it Quality Service through Partnership.
    But the fact of the matter is, when I left the governor's 
office, we had about 3,500 continuous improvement teams and we 
had 1,200 trainers. They were all people who worked in the 
State government. Everybody said well, you could not do that. 
It interferes with our jobs. But it works.
    Ms. Mattimore. Yes.
    Senator Voinovich. And they are out there constantly and so 
you get this kind of new attitude in the whole workforce 
because people are doing it themselves.
    Ms. Mattimore. Yes, we have across the company a couple 
thousand trainers who do that on a part-time basis in addition 
to their day job and we have no dedicated training staff. We do 
not outsource training. It is an expectation that our leaders 
will teach other leaders.
    Senator Voinovich. The company that helped us with this was 
Xerox.
    Ms. Mattimore. OK.
    Senator Voinovich. In fact, they donated the whole thing. 
It was unbelievable. I created an Operations Improvement Task 
Force and they came to me and said they wanted to help. I will 
never forget. I said, well, I got everybody involved already, 
but what do you do? They said, well, we are really into Total 
Quality Management.
    And so we looked into it and found it was a great thing, 
because I went through training with my union managers. They 
all knew about the program. We got started wrong because union 
representatives were not included initially, but it was 
probably the best thing, actually, it was the best thing I did 
when I was governor. It was involving people in the training 
process themselves rather than bringing in a bunch of folks to 
do the training and then the trainers go out the door and you 
do not have that residue that is there with your people.
    Mr. Palguta, you talked about three agencies. I always feel 
good about this because Senator Akaka and I were able to get 
GAO flexibilities. We were able to get NASA flexibilities and 
the Nuclear Regulatory Commission.
    Mr. Palguta. Yes.
    Senator Voinovich. Because I am getting toward the end of 
this job that I have, I want to find out whether or not any of 
those flexibilities that we got them improved employee 
satisfaction. I would be really interested if you might look at 
that. In terms of those agencies, we got them some specific 
flexibilities that they did not previously have in order to 
move forward.
    Mr. Palguta. And indeed those three agencies are among the 
top 10 in our large agency Best Places to Work rankings. We 
even gave them little plaques to commemorate that. I cannot 
speak for them obviously, but I believe if you talk to Cynthia 
Heckmann, Toni Dawsey, or Jim McDermott, the chief human 
capital officers for each agency, they will tell you that part 
of their ability to be a best place to work is the fact that 
they have some flexibilities in terms of management of the 
workforce that they use wisely, again, in accord with merit 
principles and in accord with good HR management policies and 
practices, and it makes a difference in the work environment.
    They start with bringing in really good people. I know at 
Nuclear Regulatory Commission they already invest heavily in 
training and development.
    Senator Voinovich. They brought in over 1,000 people there.
    Mr. Palguta. Yes, they have. We are seeing a resurgence in 
nuclear energy, and Senator Akaka, they would have no problem 
meeting the requirements of your bill because I think they 
already spent a lot of time on developing the workforce, 
encouraging communication.
    So I think there is a cause and effect relationship. 
Organizations that focus on workforce improvements, and they 
use the tools at their disposal the proper way--you can use 
tools wrongly, but if you use the tools as intended for the 
desired end results of a highly qualified motivated workforce, 
with diversity and veterans being given preferential 
consideration under the law, you can end up with a well 
performing organization, and that is really the bottom line of 
what it is all about.
    It is government working and we believe at the Partnership 
you do not have effective government without the people part 
being right.
    Senator Voinovich. The last question I have, because I am 
running out of my time, is you have Mr. Berry as a partner. I 
think he is really a terrific guy. I mean, I am really pleased 
with his dedication. I just wonder if you could sit down with 
him and kind of capture what ingredients there are in top 
agencies as demonstrated by this report.
    And you have mentioned some of these ingredients in your 
testimony, but it would be interesting to see if there was some 
kind of metrics they could develop to determine what do you 
need to have in place in order to get this high performing, 
satisfied work force? Because let's just take Department of 
Homeland Security. They are way down on job satisfaction index. 
What is it that you could do to help them bring up the attitude 
of the people that work there? What are the things that are 
missing?
    I know part of the problem is--I think people in the labor 
unions know this--that we took 22 agencies with different 
cultures--think about doing this with Procter & Gamble--22 
agencies, over 200,000 people and put them into a new agency 
when all the various agencies had different kinds of customs 
and missions.
    I suspect also that in terms of if you did a job 
classification analysis, you had some people that were working 
in one agency and getting X number of dollars and another 
employee that is working in another agency that was getting a 
lower sum and the word starts getting out. I mean, it is an 
enormous management challenge.
    But do you think that there was a possibility that you 
could sit down with Mr. Berry and talk about some of these 
lessons learned so that he could use those ideas to look at 
other agencies that are in trouble and say, if you did the 
following things, I think you could improve your employee 
satisfaction and make your agency a better place to work?
    Mr. Palguta. We have talked with Mr. Berry on numerous 
occasions. We are big fans. He is very accessible. I know he 
has spent much time with our union friends as well. And the 
answer is yes, there are things we think can be done.
    And I will say, Homeland Security, even though they still 
have many challenges, they had a 30 percent increase in their 
Best Places index score in the last go-around. We have not seen 
the 2010 numbers yet, but we asked, how did that happen? Was it 
an accident? And Homeland Security said, well, here are the 
things that we did in response.
    We did this Idea Factory starting at Transportation 
Security Agency and now we are expanding it as a way to get 
employees actively involved in sharing ideas and taking it 
seriously and try to make a difference. The point is, in answer 
to your question, Senator, I think there are proactive steps 
that can be taken to improve the work environment.
    I think you have to do it in collaboration with all of the 
stakeholders and I think you have to want to get better. I have 
been around a long time, but I am feeling somewhat optimistic 
that we may have an environment right now that is conducive to 
trying to do some of the right things so that we have a better 
work environment, we have more satisfied employees, and we have 
effective organizations. But it is not an accident. There are 
things that can be done and that is a good thing.
    Senator Voinovich. Great. Thank you.
    Chairman Akaka. Thank you very much, Senator Voinovich. I 
want to thank our witnesses for attending this hearing and 
providing thoughtful testimony and answers to our questions.
    A large number of employees will retire in the next 5 years 
and I believe that preparing the next generation of Federal 
employees to lead must be an urgent priority. Clearly the 
Federal Government must invest more in developing its 
employees.
    I am pleased with the progress we are making in that 
effort, but much remains to be done. I look forward to 
continuing to work with our witnesses and I hope to move 
forward with my Supervisor Training bill in the near future and 
to continue to work with my great partner, Senator Voinovich in 
this.
    And again, thank you for being here. The hearing record 
will be open for 2 weeks for additional statements or questions 
other Members may have pertaining to the hearing.
    This hearing is adjourned.
    [Whereupon, at 4:46 p.m., the Subcommittee was adjourned.]





                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                                 <all>

</pre></body></html>
